                               &gATIONAL SCIENCE FOUNDATIOh
                                   ARLINGTON, VA 22230




               Office of
           Inspector General



          MEMORANDUM


                                                              or, Investigation
.-
 .. - .     -     .
                                                                          ~   -   .   . . ~.
                                                                                        ~
                                                                                               .




                                                              ment or fraud by

                 TO:   Case No. I94030011

           On July 25, 1994, a phone call was received by ua from Dr.-
                 .noof
                    itadnuoF'eht          Dr.        stated that he is facing
          m l i n a r y actlon-orf                       for not fulfilling a
           contractual obligation of employment dating from
                                                        . 1990. r
           claims he was never employed
                                   b-/yb                          and alleges
           that the school is using his name and status to apply for NSF
           grants and to cover-up fund mismanagement or fraud.
          A review of Dr.           grants,             and             4, did
          not reveal any problems. Grant            4 and its supplement were
          awarded to Dr.                                           Foundation
          and there                                                 ere is no
          mention of Dr.
          elsewhere or
          Grant            5 was declined by the National Science Foundation
          and contained let                               is recent change in
          positions. A rev                                NSF grants did not
          reveal use of Dr.
          As we found no evidence to substantiate the allegation of fund
          mismanagement or fraud, further investigation of the allegation in
          not warranted at this time.
          This case is closed.
